Audit Report




OIG-08-022
COMBATING TERRORISM: Treasury Provides Terrorism
Information for Consolidated Watchlist Purposes Through Its
Specially Designated Nationals List
December 14, 2007




Office of
Inspector General
Department of the Treasury
Contents

Audit Report................................................................................................. 1

    Background ................................................................................................ 2

    Treasury’s Participation in the Terrorism Watchlist Nomination Process.............. 7


Appendices

    Appendix 1:         Objective, Scope, and Methodology ........................................ 10
    Appendix 2:         Management Response ......................................................... 12
    Appendix 3:         Report Distribution................................................................ 13


Abbreviations

        EO              Executive Order
        FinCEN          Financial Crimes Enforcement Network
        HSPD-6          Homeland Security Presidential Directive-6
        NCTC            National Counterterrorism Center
        OFAC            Office of Foreign Assets Control
        OIG             Office of Inspector General
        SDN             Specially Designated Nationals
        TIDE            Terrorist Identities Datamart Environment
        TSC             Terrorist Screening Center




                        Treasury Provides Terrorism Information for Consolidated                           Page i
                        Watchlist Purposes Through Its Specially Designated
                        Nationals List (OIG 07-022)
          This page intentionally left blank.




Treasury Provides Terrorism Information for Consolidated   Page ii
Watchlist Purposes Through Its Specially Designated
Nationals List (OIG 07-022)
                                                                                           Audit
OIG
The Department of the Treasury
                                                                                           Report
Office of Inspector General




                        December 14, 2007

                        Stuart A. Levey
                        Under Secretary for Terrorism and Financial Intelligence

                        This report presents the results of our audit on the Department of
                        the Treasury’s participation as it relates to providing information to
                        the National Counterterrorism Center (NCTC). We undertook this
                        review as part of a joint evaluation by the Intelligence Community
                        Offices of Inspector General (OIGs) on the process for nominating
                        individuals to the federal government’s consolidated terrorist
                        watchlist maintained by the Terrorist Screening Center (TSC). By
                        analyzing information fed to it by a number of agencies through the
                        NCTC, TSC generates the terrorist watchlist.

                        In brief, under the authorities granted to Treasury’s Office of
                        Foreign Assets Control (OFAC), Treasury provides terrorism
                        information by placing individuals and entities on the Specially
                        Designated Nationals (SDN) list.1 NCTC is then able to
                        electronically access this information to check the names against
                        the Terrorist Identities Datamart Environment (TIDE). The SDN list
                        identifies individuals and entities for the purpose of blocking their
                        property and prohibiting transactions or dealings with them. This is
                        the only mechanism that Treasury currently has to “nominate”
                        individuals to the federal government’s consolidated terrorist
                        watchlist. We also found no indications suggesting a need for
                        additional processes at this time. However, as the federal
                        government’s efforts to combat terrorism evolve, Treasury should
                        regularly reassess whether additional processes or measures, apart

1
  OFAC administers and enforces economic and trade sanctions based on U.S. foreign policy and
national security goals against targeted foreign countries, terrorists, international narcotics traffickers,
and those engaged in activities related to the proliferation of weapons of mass destruction. OFAC acts
under Presidential wartime and national emergency powers, as well as authority granted by specific
legislation, to impose controls on transactions and freeze foreign assets under U.S. jurisdiction.

                        Treasury Provides Terrorism Information for Consolidated                       Page 1
                        Watchlist Purposes Through Its Specially Designated
                        Nationals List (OIG 07-022)
             from SDN designations, are necessary to provide terrorism
             information to NCTC.

             The objectives of the Intelligence Community OIGs’ joint review
             and our scope and methodology are described in more detail in
             appendix 1.

             We provided a draft of this report to the Under Secretary for
             Terrorism and Financial Intelligence. The Under Secretary stated in
             his response that his office had no further comments. The response
             is provided as attachment 2.


Background
             Following the terrorist events of September 11, 2001, various
             efforts were undertaken to collect information on terrorists. One
             such effort, announced by the President in January 2003, was the
             Terrorist Threat Integration Center, created as part of the federal
             government’s counterterrorism strategy. A key component of the
             Center was to ensure that the agencies and departments involved
             in the war on terrorism would work closely together and share
             threat information and analyses that could be used to prevent
             terrorist attacks.

             Another effort, in September 2003, was Homeland Security
             Presidential Directive 6, Integration and Use of Screening
             Information (HSPD-6), to further strengthen the abilities of the
             federal government to protect its citizens against terrorism. Among
             other things, HSPD-6 required the Attorney General to establish an
             organization to consolidate the government’s approach to terrorist
             screening and provide for the appropriate and lawful use of terrorist
             information in screening processes. That organization, TSC,
             became operational by December 2003 and is administered by the
             Federal Bureau of Investigation. HSPD-6 also required executive
             departments and agencies to provide to the Terrorist Threat
             Integration Center on an ongoing basis, all appropriate terrorist




             Treasury Provides Terrorism Information for Consolidated       Page 2
             Watchlist Purposes Through Its Specially Designated
             Nationals List (OIG 07-022)
                       information2 in their possession, custody, or control as permitted
                       by law.

                       Executive Order (EO) 13354, issued in August 2004, established
                       NCTC under the direction of the Director of Central Intelligence.
                       NCTC assumed the tasks of the Terrorist Threat Integration Center.
                       In December 2004, Congress codified NCTC in the Intelligence
                       Reform and Terrorism Prevention Act of 2004 and placed NCTC
                       within the Office of the Director of National Intelligence.3 NCTC
                       serves as the primary organization in the federal government for
                       analyzing and integrating all intelligence possessed or acquired by
                       the federal government pertaining to terrorism and
                       counterterrorism, excepting intelligence pertaining exclusively to
                       domestic terrorists and domestic counterterrorism.

                       NCTC’s Terrorist Identities Group maintains the federal
                       government’s central repository of international terrorist identities
                       information in support of the government’s terrorist screening
                       system and the intelligence community’s counterterrorism mission.
                       The Terrorist Identities Group obtains watchlist nominations from
                       various sources and creates or enhances records in its terrorist
                       identities database, TIDE. In turn, the Terrorist Identities Group
                       exports terrorist identifiers (a subset of the data in TIDE) to TSC
                       daily. TSC maintains this information in the federal government’s
                       consolidated terrorist watchlist, known as the Terrorist Screening
                       Database.4

                       TSC supports law enforcement agencies and some foreign
                       governments that conduct terrorist screening by making the
                       Terrorist Screening Database information available to them for
                       screening purposes. TSC’s 24-hour call center also supports
                       agencies’ terrorist screening processes by determining whether the
                       person being screened is an identity match to the Terrorist
                       Screening Database. TSC supports terrorism screening at such
                       agencies as the State Department (passport and visa applications),

2
  HSPD-6 defines terrorist information as information about individuals known or appropriately
suspected to be or have been engaged in conduct constituting, in preparation for, in aid of, or related to
terrorism.
3
  P.L. No. 108-458.
4
  The Federal Bureau of Investigation provides purely domestic counterterrorism information directly to
the consolidated terrorism watchlist.

                       Treasury Provides Terrorism Information for Consolidated                     Page 3
                       Watchlist Purposes Through Its Specially Designated
                       Nationals List (OIG 07-022)
                      the Bureau of Customs and Border Protection (border crossings and
                      international flights), the Bureau of Citizenship and Immigration
                      Services (immigration and citizenship applications), and the
                      Transportation Security Administration (domestic flights). TSC has
                      also made terrorist identities information accessible through the
                      National Crime Information Center system to law enforcement
                      officers, including state and local officers, nationwide.

                      OFAC Sanction Programs

                      OFAC acts under presidential and national emergency powers, as
                      well as authority granted by specific legislation, to impose controls
                      on transactions and freeze foreign assets under the jurisdiction of
                      the United States. Many of the sanctions are based on United
                      Nations and other international mandates, are multilateral in scope,
                      and involve close cooperation with allied governments.

                      Under the International Emergency Economic Powers Act,5 the
                      principal statutory authority for OFAC’s terrorism sanctions
                      programs, the President, upon determining that there is an unusual
                      or extraordinary threat, which has its source in whole or in
                      substantial part outside of the United States, to the national
                      security, foreign policy, or economy of the United States, may
                      issue an EO declaring a national emergency with respect to the
                      threat and specifying measures to be taken in response.

                      Such an EO will often include provisions blocking the assets of,
                      and prohibiting U.S. persons from dealing with, designated
                      individuals and entities that have been determined to be
                      contributing to the threat addressed by the EO. The EO typically
                      delegates authority to Treasury and the State Department to
                      designate persons subject to the EO’s prohibitions based on criteria
                      set forth in the order. These designated persons are then included
                      on the SDN list. Potential targets can be identified for designation
                      pursuant to an EO and inclusion on the SDN list by one of the
                      following methods: (1) internal investigations by OFAC or the
                      Office of Intelligence and Analysis (OIA), (2) interagency processes
                      where potential targets are forwarded to OFAC for possible


5
    50 U.S.C. §§1701-1706

                      Treasury Provides Terrorism Information for Consolidated        Page 4
                      Watchlist Purposes Through Its Specially Designated
                      Nationals List (OIG 07-022)
inclusion on the list, or (3) requests from other countries or from
international organizations such as the United Nations.

When a potential target is identified, OFAC or OIA analysts perform
any necessary research to determine if there is sufficient evidence
to support a finding that the target meets the criteria for
designation under the applicable EO. An administrative record is
prepared and includes descriptions of the information as well as the
underlying evidence showing that the target meets the EO criteria.
The record then goes through a series of reviews to ensure that it
is a legal sufficient basis for the target’s designation and that the
designation is otherwise appropriate. If these requirements are met,
the designation will be approved and a notice will be published on
the OFAC Web site and in the Federal Register adding the
designated person to the SDN list.

There are three specific EOs targeting terrorists and their
supporters, and persons designated pursuant to those EOs are
referred to as Specially Designated Terrorists or Specially
Designated Global Terrorists. Names included in these groups are
subsets of and are included in the SDN list. The SDN list also
includes persons designated by the Secretary of State as Foreign
Terrorist Organizations.

OFAC-Administered Terrorism Sanction Programs

OFAC administers terrorism sanctions programs under the following
authorities:

•   EO 13224 On September 23, 2001, President Bush declared a
    national emergency pursuant to the International Emergency
    Economic Powers Act and other authorities in EO 13224,
    “Blocking Property and Prohibiting Transactions With Persons
    Who Commit, Threaten to Commit, or Support Terrorism.” EO
    13224 imposes economic sanctions on persons who have been
    determined to have committed or pose a significant risk of
    committing acts of terrorism, as well as on persons determined
    to be owned or controlled by such persons or to provide support
    to such persons or acts of terrorism. It prohibits any transaction
    with, or dealing in property or interests in property of, any
    person (i.e., an individual or entity) designated under its

Treasury Provides Terrorism Information for Consolidated         Page 5
Watchlist Purposes Through Its Specially Designated
Nationals List (OIG 07-022)
                           authority, including the donation of funds, goods, or services,
                           and it blocks all property in the United States or within the
                           possession or control of a U.S. person in which there is an
                           interest of any designated person.
                       •   EOs 12947 and 13099 Prior to September 11, 2001, sanctions
                           targeted terrorists threatening the Middle East peace process,
                           who are referred to as Specially Designated Terrorists. In
                           January 1995, President Clinton declared a national emergency
                           pursuant to the International Emergency Economic Powers Act
                           and other authorities in EO 12947, “Prohibiting Transactions
                           With Terrorists Who Threaten to Disrupt the Middle East Peace
                           Process.” EO 12947 prohibits dealing in property or interests in
                           property of any organization or individual designated under its
                           authority and it blocks all property in the United States or within
                           the possession or control of a U.S. person in which there is an
                           interest of any designated person. Twelve terrorist organizations
                           were named in the Annex to EO 12947. In August 1998,
                           President Clinton issued EO 13099, which amended EO 12947
                           by adding three individuals including Osama bin Ladin and one
                           organization, Al-Qaida, to the Annex of EO 12947.

                       •   Antiterrorism Act The Antiterrorism and Effective Death Penalty
                           Act of 1996 authorizes the Secretary of State, in consultation
                           with the Secretary of the Treasury and the Attorney General, to
                           designate organizations meeting criteria as Foreign Terrorist
                           Organizations.6 The act also makes it a crime for persons within
                           the U.S. or subject to U.S. jurisdiction to knowingly provide
                           material support or resources to a designated foreign terrorist
                           organization. Additionally, except as authorized by Treasury,
                           U.S. financial institutions in possession or control of funds in
                           which a foreign terrorist organization or its agent has an interest
                           are required to block such funds and report on the funds to
                           Treasury.

                       According to OFAC, as of December 31, 2006, a total of 466
                       individuals and entities had been identified or designated and
                       remain listed as Specially Designated Global Terrorists for having
                       met one or more of the criteria for designation in EO 13224.
                       Included in this total are 41 organizations or groups designated as

6
    P.L. No. 104-132

                       Treasury Provides Terrorism Information for Consolidated         Page 6
                       Watchlist Purposes Through Its Specially Designated
                       Nationals List (OIG 07-022)
                       foreign terrorist organizations by the Department of State under the
                       Antiterrorism Act.7

                       Terrorists, terrorist groups, and terrorist support networks that are
                       designated as a foreign terrorist organization, Specially Designated
                       Terrorist, or a Specially Designated Global Terrorist are placed on
                       OFAC's public list and generically referred to as SDNs. U.S.
                       persons are prohibited from conducting unauthorized transactions
                       or having other dealings with or providing services to the
                       designated individuals or entities. Any property or property interest
                       of a designated person that comes within the control of a U.S.
                       person is blocked and must be reported to OFAC.


Treasury’s Participation in the Terrorism
Watchlist Nomination Process
                       We determined that Treasury does not have a specific process to
                       nominate individuals to the consolidated terrorist watchlist.
                       However, under sanctions programs administered by OFAC, when
                       individuals are added to the SDN list, this information is
                       communicated by electronic alert to NCTC to be checked against
                       TIDE.

                       According to NCTC personnel, NCTC’s Terrorist Identities Group
                       did an initial processing of the SDN list during the last quarter of
                       2004 and then established a mechanism to receive periodic SDN
                       list updates via e-mail directly from Treasury. Once notified of an
                       addition to the SDN list, NCTC checks to see if the individual is




7
 Source: OFAC report entitled TERRORIST ASSETS REPORT Calendar Year 2006: Fifteenth Annual
Report to Congress on Assets in the United States of Terrorist Countries and International Terrorism
Program.


                       Treasury Provides Terrorism Information for Consolidated                   Page 7
                       Watchlist Purposes Through Its Specially Designated
                       Nationals List (OIG 07-022)
                       already included in TIDE.8 If the individual is not included in TIDE,
                       NCTC analysts determine whether the individual should be added.
                       NCTC then exports the identifier information to TSC for use in the
                       consolidated watchlist.9 When OFAC deletes an SDN, NCTC
                       deletes the OFAC source from the TIDE record.

                       As part of our audit, we sought to determine whether Treasury
                       should have a process other than the SDN list to provide terrorist
                       information to NCTC for watch list purposes. We interviewed the
                       Treasury Under Secretary for Terrorism and Financial Intelligence,
                       the Assistant Secretary for Intelligence and Analysis, the Director
                       of OFAC, the Director of the Financial Crimes Enforcement
                       Network (FinCEN),10 and attorneys with the Office of General
                       Counsel about their perspective on this subject. All the officials
                       stated that Treasury did not need a separate nomination process.
                       Furthermore, we did not find any indicators to suggest otherwise.

                       That being said, as the federal government’s efforts to combat
                       terrorism evolve, we believe that it would be prudent for Treasury
                       to regularly reassess whether additional processes or measures are
                       necessary to provide terrorism information to NCTC apart from
                       SDN designations for purposes of the consolidated terrorist
                       watchlist.

                                                          ******

                       I would like to extend my appreciation for the cooperation and
                       courtesies extended to my staff during the review. If you have any

8
   According to NCTC, the specific categories of SDNs that are processed are: Specially Designated
Terrorist, Specially Designated Global Terrorist, and Specially Designated Narcotics Trafficking Kingpin.
Also processed are SDNs designated pursuant to EO 13315, “Blocking Property of the Former Iraqi
Regime,” issued in August 2003.
9
   According to NCTC, when the SDN is a new name, the Terrorist Identities Group only selects options
to export the identifier for purposes of screening visas and at ports of entry when exporting the data to
TSC. As additional information about the individuals is received from other agencies, the TIDE record is
updated and additional screening systems are selected and exported to TSC as appropriate.
10
   Established in 1990 as an office and later designated as a Treasury bureau by the USA PATRIOT Act
of 2001, FinCEN’s mission is to support law enforcement efforts and foster interagency and global
cooperation against domestic and international financial crimes, and to provide U.S. policymakers with
strategic analyses of domestic and worldwide trends and patterns. FinCEN is the administrator of the
Bank Secrecy Act. Among other things, this act requires financial institutions to file reports with FinCEN
on currency transactions exceeding prescribed thresholds and on suspicious financial activities.

                       Treasury Provides Terrorism Information for Consolidated                     Page 8
                       Watchlist Purposes Through Its Specially Designated
                       Nationals List (OIG 07-022)
questions, please contact me at (202) 927-5400, or Robert A.
Taylor, Deputy Assistant Inspector General for Performance Audit,
at (202) 927-5792. The major contributors to this report are
Thomas Byrnes, Audit Director (retired); Cynthia Milanez, Acting
Audit Director; and Leslye Burgess, Audit Manager.




Marla A. Freedman
Assistant Inspector General for Audit




Treasury Provides Terrorism Information for Consolidated     Page 9
Watchlist Purposes Through Its Specially Designated
Nationals List (OIG 07-022)
                       Appendix 1
                       Objective, Scope, and Methodology


                       In December 2006, the Intelligence Community Inspectors General
                       Forum agreed to coordinate a review of the processes for
                       nominating individuals to the consolidated terrorism watchlist that
                       is maintained by the Terrorist Screening Center pursuant to
                       Homeland Security Presidential Directive-6.11 The objectives of the
                       review are to ascertain, both within agencies and across the
                       intelligence community, whether:

                       1. processes and standards for nominating individuals to the
                          consolidated watchlist are consistent (both within agencies and
                          across the intelligence community), articulated in policy or other
                          guidance, and understood by nominators;
                       2. quality control processes are in place to help ensure
                          nominations are accurate, understandable, updated with new
                          information, and include all individuals who should be placed on
                          the watchlist based on information available to the agencies;
                       3. responsibility for watchlist nominations is clear, effective, and
                          understood;
                       4. nominators receive adequate training, guidance, or information
                          on the nomination process;
                       5. agencies maintain records of their nominations to the National
                          Counterterrorism Center (and to the Terrorist Screening Center,
                          in the case of the Federal Bureau of investigation), including the
                          source of the nomination and what information was provided;
                          and
                       6. organizations with terrorism, counterterrorism, and domestic
                          counterterrorism information in their possession, custody, or
                          control appropriately participate in the nomination process.

                       To accomplish these objectives as they applied to the Department
                       of the Treasury, we reviewed applicable laws, regulations, and
                       Executive Orders and obtained an understanding of the government
                       wide process for placement of individuals and entities on the
                       Terrorist Screening Database maintained by the Terrorist Screening
                       Center. We also obtained an understanding of Treasury’s (Office of
                       Foreign Assets Control) process for adding individuals to the

11
   Participating in the review were the Offices of Inspector General (OIG) of the Office of the Director of
National Intelligence, Central Intelligence Agency, Department of Justice, Defense Intelligence Agency,
National Security Agency, Department of Homeland Security, Department of State, National Geospatial-
Intelligence Agency, Department of the Treasury, and Department of Energy. The Office of the Director
of National Intelligence OIG coordinated the review.

                       Treasury Provides Terrorism Information for Consolidated                     Page 10
                       Watchlist Purposes Through Its Specially Designated
                       Nationals List (OIG 07-022)
Appendix 1
Objective, Scope, and Methodology


Specially Designated Nationals list for purposes of blocking their
property and prohibiting transactions or dealings with the
designated individuals. We interviewed Treasury officials and staff
including the Under Secretary for Terrorism and Financial
Intelligence, Assistant Secretary for Intelligence and Analysis,
Director of the Office of Foreign Assets Control, and Director of the
Financial Crimes Enforcement Network. We also interviewed staff
with the National Counterterrorism Center. We did not, as part of
work, test controls over the addition of individuals to the
Specifically Designated Nationals list or the provision of terrorism
information by Treasury to the National Counterterrorism Center.

We performed our fieldwork from March through August 2007.
Our audit was conducted in accordance with generally accepted
government auditing standards.




Treasury Provides Terrorism Information for Consolidated      Page 11
Watchlist Purposes Through Its Specially Designated
Nationals List (OIG 07-022)
Appendix 2
Management Response




Treasury Provides Terrorism Information for Consolidated   Page 12
Watchlist Purposes Through Its Specially Designated
Nationals List (OIG 07-022)
Appendix 3
Report Distribution




Department of the Treasury

Under Secretary for Terrorism and Financial Intelligence
Assistant Secretary for Intelligence and Analysis
Director, Office of Foreign Assets Control
Director, Financial Crimes Enforcement Network
Office of Accounting and Internal Control
Office of Strategic Planning and Performance Management

Office of the Director of National Intelligence

Inspector General

Office of Management and Budget

OIG Budget Examiner




Treasury Provides Terrorism Information for Consolidated   Page 13
Watchlist Purposes Through Its Specially Designated
Nationals List (OIG 07-022)
